            U.S. Department of Agriculture

               Office of Inspector General
                        Southwest Region




     Audit Report




Review of Fiscal Year 2005
 Congressional Earmarks




                Audit Report 50601-15-Te
                             March 2007
                     UNITED STATES DEPARTMENT OF AGRICULTURE

                                     OFFICE OF INSPECTOR GENERAL


                                          Washington, D.C. 20250


March 12, 2007


REPLY TO
ATTN OF:      50601-15-Te

TO:           Charles F. Conner
              Deputy Secretary

ATTN:         Steven Helmrich                                  Ellen Danus
              Director, Financial Management                   Chief, Policy, Oversight, and
              Agricultural Research Service                      Funds Management Branch
                                                               Cooperative State Research, Education,
                                                                and Extension Service

              Sandy Coleman                                    Daniel Runnels
              Audit Liaison                                    Director, Operations Management
              Forest Service                                    and Oversight Division
                                                               Natural Resources Conservation Service

              Michael Young                                    Kathleen Donaldson
              Associate Director                               Audit Liaison Officer
              Office of Budget and                             Office of the Chief Financial Officer -
               Program Analysis                                 Planning and Accountability Division

FROM:         Robert W. Young /s/
              Assistant Inspector General
               for Audit

SUBJECT:      Review of Fiscal Year 2005 Congressional Earmarks


SUMMARY:
Our review of fiscal year (FY) 2005 congressional earmarks sought to determine the total number and
dollar amount of congressional earmarks made to the Department. We determined that in FY 2005 the
Department had 1,167 earmarks totaling $1,338,873,451. We found that the Department did not have a
formal process for collecting earmark totals and dollar amounts that are reported to the Secretary.
Since the Office of Management and Budget (OMB) has recently issued guidance for earmarks, we
did not make a recommendation for this issue. The OMB memorandum, dated January 25, 2007, states
that agencies are to provide earmark information that includes the recipient, cost, description, and
treasury account. In addition, we reviewed the steps agencies took to oversee 20 judgmentally selected
Charles F. Conner                                                                                        2

congressional earmarks. Overall, we found that the controls were adequate. We determined that the
agencies did not have special oversight procedures relating to earmarks; instead the oversight was
specific to the type of project funded. We found the earmarks funded many different projects and the
funds were distributed in grants, agreements, contracts, land purchases, etc. The projects funded by
congressional earmarks are treated the same as any other grant, agreement, etc. that is distributed by
the agencies. The type of project funded determined which controls were in effect.

BACKGROUND:
Senator Tom Coburn of Oklahoma requested that the Office of Inspector General (OIG) review
congressional earmarks made to the Department for FY 2005. Senator Coburn provided the following
definition for the review, “For the purposes of this request, a Congressional earmark should be defined
as a provision of law, a directive, or item represented in any table, chart or test contained within a joint
explanatory statement or a report accompanying a bill that specifies the identity of an entity, program,
project or service and the amount of the assistance received.”
Senator Coburn requested that OIG determine the total number and cost of earmarks made to the
Department. In addition, OIG was to determine what oversight is conducted on earmarks.
OBJECTIVES:
We initiated this audit to determine the total number and dollar amount of congressional earmarks
made to the Department, and the oversight conducted on earmarks.

SCOPE AND METHODOLOGY:
The audit was conducted at the Agricultural Research Service (ARS); Cooperative State Research,
Education, and Extension Service (CSREES); Forest Service (FS); and Natural Resources
Conservation Service (NRCS) Headquarters in Washington, D.C. We also gathered information from
the Office of Budget and Program Analysis (OBPA) and the budget offices from 11 U.S. Department
of Agriculture agencies in Washington, D.C. We performed onsite fieldwork for eight judgmentally
selected earmarks at agency offices in New Mexico and Texas. We performed desk reviews of
12 judgmentally selected earmarks from ARS, CSREES, FS, and NRCS. The selected earmarks were
chosen based on large dollar amounts with location used as a factor for field visits. Fieldwork was
performed from October 2006 to February 2007. We reviewed congressional earmarks from FY 2005.

To accomplish our audit objectives, we:

   1. reviewed agency policies and procedures and Federal regulations;

   2. interviewed ARS, CSREES, FS, and NRCS officials responsible for managing projects that
      were funded by congressional earmarks;

   3. interviewed OBPA officials concerning how earmark data for the Secretary was collected and
      reported;

   4. reviewed data on congressional earmarks gathered from agency budget offices to verify the
      total number and dollar amount; and

   5. analyzed selected projects funded with congressional earmarks to ensure that oversight
      controls were functioning adequately.
Charles F. Conner                                                                                3


The audit was conducted in accordance with Government auditing standards.

RESULTS:
We determined that in FY 2005 the Department had 1,167 earmarks totaling $1,338,873,451. As
stated in the Summary section, we found that the Department did not have a formal process for
collecting earmark totals and dollar amounts that are reported to the Secretary. Since OMB has
recently issued guidance for earmarks, we did not make a recommendation for this issue. In addition,
overall, we found that the controls were adequate. The projects funded by congressional earmarks are
treated the same as any other grant, agreement, etc. that is distributed by the agencies. No further
action is required.
